                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA’s Information Systems
                     and Data Are at Risk Due to
                     Insufficient Training of
                     Personnel With Significant
                     Information Security
                     Responsibilities
                     Report No. 14-P-0142                    March 21, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Abbreviations

CIO                      Chief Information Officer
EPA                      U.S. Environmental Protection Agency
FISMA                    Federal Information Security Management Act
GAO                      Government Accountability Office
IMO                      Information Management Officer
IPA                      Independent Public Accounting
ISO                      Information Security Officer
ISSO                     Information System Security Officer
IT                       Information Technology
NIST                     National Institute of Standards and Technology
OEI                      Office of Environmental Information
OIG                      Office of Inspector General
OPM                      Office of Personnel Management
SAISO                    Senior Agency Information Security Officer
SIO                      Senior Information Officer
SP                       Special Publication



Hotline                                         Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact        To make suggestions for audits or evaluations,
us through one of the following methods:        contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                   email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                        phone:    1-202-566-2391
fax:      1-202-566-2599                        fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm    online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline         write:    EPA Inspector General Hotline
          1200 Pennsylvania Avenue, NW                    1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                  Mailcode 2431T
          Washington, DC 20460                            Washington, DC 20460
                                                                                                            14-P-0142
                        U.S. Environmental Protection Agency                                            March 21, 2014
                        Office of Inspector General


                        At a Glance

Why We Did This Review
                                    EPA’s Information Systems and Data Are at Risk Due
The U.S. Environmental              to Insufficient Training of Personnel With Significant
Protection Agency’s (EPA’s)         Information Security Responsibilities
Office of Inspector General
(OIG) contracted with KPMG
LLP, an independent public           What the IPA Auditor Found
accounting (IPA) firm, to
                                    The EPA lacks an information security 	           The EPA places its information 

conduct an audit of the
                                    role-based training program that defines          systems and data at risk due to

qualifications and current skills                                                     an organizational structure that
of EPA personnel with               specific training requirements for personnel
                                                                                      has not specified required duties
significant information security    with significant information security
                                                                                      and responsibilities to ensure
responsibilities, to determine      responsibilities. Implementation of the           personnel are trained on key
their training needs and            EPA’s information security training program       information security roles.
evaluate consistency with the       is hindered by inconsistent assignment of
E-Government Act of 2002.           information security roles across the various EPA offices. The current training
                                    program does not consider specific needs of technical and managerial personnel
The E-Government Act                responsibilities for implementing information security as required by the federal
requires federal agency             guidance. Management has not completed efforts to tailor the existing training
information technology (IT)         programs to align it with the EPA’s organizational structure. The EPA’s
security personnel to maintain      decentralized structure creates differing levels of information security
sufficient training and             implementation and oversight of training requirements. As a result, training may
knowledge to conduct their          be insufficient to assure management that personnel with significant information
duties.                             security duties have the skills and understanding necessary to identify, prevent or
                                    mitigate vulnerabilities affecting the EPA’s information systems and
This report addresses the           infrastructure.
following EPA theme:
                                    The IPA is responsible for the content of the audit report. The OIG performed the
  Strengthening EPA’s              procedures necessary to obtain reasonable assurance about the IPA’s
   workforce and capabilities.      independence, qualifications, technical approach and audit results. Having done
                                    so, the OIG accepts the IPA’s conclusions and recommendations.

                                     Recommendations and Agency Corrective Actions

                                    The IPA’s report recommends that the Assistant Administrator for Environmental
                                    Information: (1) define key information security aspects and duties for each
                                    security role; (2) provide additional training options specific to the federal
                                    information security environment and EPA information security roles; (3)
                                    standardize the terminology and definition of responsibilities for key IT security
                                    roles; and (4) provide clearer delineation of which EPA organizations should be
                                    responsible for delivering specific elements of information security role-based
For further information,            training. EPA agreed with the recommendations and is taking corrective action.
contact our public affairs office
at (202) 566-2391.                   Noteworthy Achievements
The full report is at:              The EPA conducts an annual Security and Operations conference. The EPA also
www.epa.gov/oig/reports/2014/
                                    implemented an annual specialized training requirement for employees with
20140321-14-P-0142.pdf
                                    significant information security responsibilities.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                   THE INSPECTOR GENERAL



                                             March 21, 2014

MEMORANDUM

SUBJECT:       EPA’s Information Systems and Data Are at Risk Due to Insufficient Training of
               Personnel With Significant Information Security Responsibilities
               Report No. 14-P-0142

FROM:          Arthur A. Elkins Jr.

TO:            Renee P. Wynn, Acting Assistant Administrator and Chief Information Officer
               Office of Environmental Information

The independent public accounting (IPA) firm KPMG LLP conducted this audit on behalf of the
U.S. Environmental Protection Agency’s (EPA’s) Office of Inspector General (OIG). This is the IPA’s
report on the subject audit conducted on behalf of the OIG. This report contains findings that describe
the problems the IPA identified and corrective actions the IPA recommends. The Senior Agency
Information Security Officer is the primary official responsible for the agency program that KPMG
reviewed during this audit. This report represents the opinion of the IPA and does not necessarily
represent the final EPA position. The agency concurred with all the report’s recommendations and
provided high-level planned corrective actions with milestone dates, which KPMG found acceptable.

Action Required

Based upon your response to the draft report, we will close this report in our audit tracking system upon
issuance. We believe the proposed actions, when implemented, will adequately address the report’s
findings and recommendations. Please provide updated information in the EPA’s Management Audit
Tracking System as you complete each planned corrective action or revise any corrective actions and/or
milestone dates. If you are unable to meet your planned milestones, or believe other corrective actions
are warranted, please send us a memorandum stating why you are revising the milestones or why you
are proposing alternative corrective actions, as required by EPA Manual 2750.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Rudolph M. Brevard, Director, Information Resources Management Audits, at (202) 566-0893 or
brevard.rudy@epa.gov.
March 4, 2014

Re: Assessment of EPA Personnel with Significant Information Security Responsibilities

Thru: 	 Arthur A. Elkins, Jr.
        Inspector General

To: 	   Renee P. Wynn, Acting Assistant Administrator for
        Environmental Information and Chief Information Officer

Thank you for providing KPMG LLP (KPMG) with the opportunity to assist the Environmental
Protection Agency Office of Inspector General in performing an assessment of EPA personnel
with significant information security responsibilities.

In summary, we found opportunities for improvement in the development and implementation of
EPA’s role-based information security awareness program across the regional and program
offices supporting the EPA’s mission. Although Federal personnel generally demonstrated a high
level of awareness of responsibilities associated with their assigned information security roles,
EPA could take additional steps to formalize the management of roles and responsibilities across
its workforce and align training requirements to those roles.

Please provide your written comments to the EPA OIG points of contact.

Sincerely,




Tony Hubbard, Principal
EPA’s Information Systems and Data Are at Risk                                                                              14-P-0142
Due to Insufficient Training of Personnel With
Significant Information Security Responsibilities



                                     Table of Contents 


Chapters
   1 Introduction.............................................................................................................        1


             Purpose .............................................................................................................    1     

             Background .......................................................................................................       1     

             Responsible Office ............................................................................................          1     

             Noteworthy Achievements.................................................................................                 2

             Scope and Methodology....................................................................................                2


   2 Information Security Role-Based Training Efforts Can Be Better Defined .......                                                   3


             Definition of Roles and Responsibilities Is Incomplete or Inconsistent .............                                     3

             Role-Based Training Is Not Specific to Assigned Information Security Roles ...                                           4

             Available Skillport Training Does Not Align With EPA Professionals’ Needs ....                                           5

             Recommendations ............................................................................................             7     

             Agency Comments and KPMG Evaluation........................................................                              8


   3 Information Security Governance Supporting Training Efforts 

     Can Be Improved ...................................................................................................              9


             Assignment of Information Security Roles Is Inconsistent ................................                                9

             Organization Structure for Information Security Roles Is Inconsistent ..............                                     9

             Recommendations ............................................................................................            12     

             Agency Comments and KPMG Evaluation........................................................                             12 


   Status of Recommendations and Potential Monetary Benefits..............................                                           13




Appendices
   A       Survey Questions...............................................................................................           14 


   B       Agency Response to Draft Report....................................................................                       17 


   C       Revised Agency Corrective Action Plan to Report Recommendations........                                                   20 


   D       Distribution .........................................................................................................    22 

                                     Chapter 1

                                      Introduction

Purpose

The objective of this review was to evaluate the qualifications and current skills of U.S.
Environmental Protection Agency (EPA) personnel with significant information security
responsibilities, determine their training needs, and determine whether the EPA’s information
security workforce possesses the knowledge, competencies and skills necessary to meet agency
goals as mandated by the E-Government Act of 2002.

Background
On December 17, 2002, the President signed into law the E-Government Act of 2002, providing
a comprehensive framework for information security standards and programs. Title III of the
E-Government Act is the Federal Information Security Management Act (FISMA), which
requires federal Chief Information Officers (CIOs) to assess and report on the status of their
agency’s information security program. FISMA focuses on information security program
management, implementation and evaluation aspects of the security of federal information
systems. FISMA also codifies existing guidance from the Office of Management and Budget and
National Institute of Standards and Technology (NIST), as well as regulations from the
Clinger-Cohen Act of 1996. FISMA requires that information security personnel possess
professional qualifications, including training and experience, required to administer the
functions described in the act. In addition, FISMA requires federal agencies to adequately train
all personnel with significant information security responsibilities. According to FISMA, an
agency must ensure that it has trained personnel sufficient to assist the agency in complying with
the requirements of the act.

Responsible Office
EPA’s Chief Information Officer (CIO), within the Office of Environmental Information, is
responsible for developing and maintaining an information security program as required by the
E-Government Act of 2002, Title III Information Security, also known as the Federal
Information Security Management Act. Within the CIO office, EPA’s Senior Agency
Information Security Officer (SAISO) is responsible for developing and maintaining role based
training, education and credentialing requirements to ensure personnel with significant
information security responsibilities receive adequate training with respect to personnel’s
responsibilities.




14-P-0142                                                                                        1
Noteworthy Achievements
We generally noted that the EPA information security personnel we interacted with through the
survey and interviews did appear to possess the qualifications, skills and experience necessary to
execute their assigned security-related responsibilities. We also noted that the EPA has some
processes in place to promote information security training and knowledge, such as offering an
annual Information Security Officer (ISO) conference through classroom and webcast-based form,
conducting monthly ISO coordination meetings, and implementing an annual specialized training
requirement for employees with significant information security responsibilities under the
direction of the SAISO.

Scope and Methodology
We initially conducted a Web-based survey to gather anonymous input on improving the EPA’s 

information security program (356 EPA federal employees completed the survey). We applied 

the survey results to gather data related to the responders’ office/region, extent of security 

training, years of relevant experience, relevant professional certifications, operational 

responsibilities, and familiarity with the EPA’s information security policies and practices. We

have provided the survey questions as Appendix A to this report. 


We also interviewed 87 EPA employees with significant information security responsibilities 

located at the following offices: 


   Headquarters program offices. 

   Research Triangle Park (North Carolina).

   Region 5 (Chicago, Illinois). 

   Region 8 (Denver, Colorado). 


The results of our survey and interviews are not statistically valid, and therefore we cannot 

project the results to the EPA organization as a whole. 


We also reviewed EPA policies and procedures relevant to this review. 


We initiated the review in March 2012, conducted the survey from October to December 2012, 

and completed the review procedures in August 2013. Evaluation fieldwork was conducted in 

accordance with generally accepted government auditing standards. 





14-P-0142                                                                                         2
                                     Chapter 2

     Information Security Role-Based Training Efforts 

                  Can Be Better Defined 

The EPA’s information security training and awareness programs are based upon inconsistent
assignment and definition of related roles and responsibilities across the various regional and
program offices. Existing training materials do not adequately consider specific needs of
technical and managerial personnel with assigned and collateral responsibilities for information
security as required by the EPA, NIST, and Office of Personnel Management (OPM)
requirements. Management has not completed efforts to tailor existing training programs to align
with the EPA’s organizational structure. As a result, training may be insufficient to assure
management that information security personnel have the skills and understanding necessary to
identify and prevent or mitigate the threat of vulnerabilities affecting the EPA’s information
systems and infrastructure and underlying financial or mission-critical business data.

Definition of Roles and Responsibilities Is Incomplete or Inconsistent
There are no specific information security training requirements or curriculum defined for
personnel with significant information security roles, such as an ISO. In the memorandum,
“Training for EPA Employees with Significant Information Security Responsibilities,” addressed
to ISOs (initially issued on June 23, 2003, and reissued each subsequent fiscal year), the SAISO
listed 17 information security roles as a basis for identifying individuals in the ISOs’
organizations subject to role-based training requirements. The 17 defined roles are generally
comparable to roles defined in NIST guidance, but the responsibilities of the roles can vary
greatly. For instance, many EPA information security professionals are called ISOs, but the
individuals assigned the role of ISO can have widely varying duties and levels of responsibilities.
They may be a Primary ISO for an office or region, a local ISO at a field location, an ISO for a
single system, or a security professional at a data center who supports network or systems
infrastructure.

Further, there are inconsistencies in the naming and definition of information security roles
among various EPA policies and organizations. For example, EPA CIO Policy 2150.3, EPA
Information Security Policy, defines the following information security roles: CIO, SAISO,
Senior Information Officer (SIO), Authorizing Official’s Designated Representative, System
Owner, Information System Security Officer (ISSO), and Common Controls Provider. However,
CIO Procedure 2150.3-P-02.1, Information Security – Interim Awareness and Training
Procedures v.3.1, lists roles and responsibilities for the CIO, System Owners, Information
Owners, Information Technology (IT) Security Program Managers, managers and supervisors,
EPA Administrator, and general-end users. Although there are references to other roles, the
procedure does not define roles and responsibilities with respect to the EPA’s information
security training and awareness program for other defined positions within the agency, including
the SAISO, SIOs, Primary ISOs, and ISSOs.




14-P-0142                                                                                        3
Role-Based Training Is Not Specific to Assigned Information Security
Roles
Of the 356 survey respondents, 51 (14 percent) indicated they did not receive specialized role-
based information security training in the prior year. Specific training is needed for many
information security roles, such as: 1) NIST defined information security roles, such as those
supporting system certification and accreditation and continuous monitoring efforts;
2) technology or tool training, in particular for network and system administrators, system
developers, firewall administrators, Network Operations Center staff, and incident response
professionals; 3) role-specific training, such as training for an ISSO, guiding the activities those
professionals need to perform for that role; and 4) training specific to relevant professional
certifications, such as the Certified Information Systems Security Professional. The need for this
role-based training is summarized in figure 1, which is data collected directly from our survey,
sorted by program office or regional office, which illustrates the percentages of EPA personnel
with significant information security responsibilities who do not feel they have sufficient role-
based training to perform their duties.

Figure 1: Percentage of EPA personnel who believe they do not have sufficient IT security role-based
training (by program office and regional location) 1
  40

    35

    30

    25

    20

    15

    10

    5

    0
            Total
           OECA




             OW
             OAR




             OIG



         OSWER
              OEI
           OCFO
              OA



          OCSPP




            OITA
          OARM




            OGC



            ORD



              R‐1
              R‐2
              R‐3
              R‐4
              R‐5
              R‐6
              R‐7
              R‐8
              R‐9
            R‐10




Source: Independent public accounting firm’s (IPA’s) survey results.




1
  Zero percent of Office of General Counsel, Office of Inspector General and Region 5 survey respondents indicated
that they did not believe they have sufficient IT security role-based training.



14-P-0142                                                                                                            4
Available Skillport Training Does Not Align With EPA Professionals’
Needs
Skillport is the EPA’s online training tool, and one of the primary tools for offering information
security training to EPA professionals. We noted that Skillport provides essentially the same set
of courses for all information security personnel regardless of role. Although the EPA refers to
Skillport as a “role-based” training tool, there is limited distinction made in the training
requirements between executive and technical personnel. Based on inputs from EPA personnel
feedback from the interviews and survey responses, the Skillport training appears to be too
technical for executive level personnel and too general for technical personnel. The results for
this issue are summarized in figure 2, which is data from our interviews, and illustrates that only
27 percent of the interview participants felt that Skillport offered adequate role-based training.
Notably, 42 percent of interviewees felt that security training needed more EPA and role focus.
They noted that available training within Skillport lacked content specific to the EPA, the federal
environment, and/or the respondents’ assigned information security role(s).

               Figure 2: Percentage of EPA personnel that receive value from Skillport




                                                         Adequate
                               Not Adequate
                                                           (27%)
                                      (20%)


                                                           Barely Adequate
                                                                   (11%)


                                      Needs More Focus
                                           on EPA/Role
                                                (42%)




               Source: IPA’s interviews’ results.

In addition, our survey responses noted that 62 (17 percent) of 356 respondents, many of whom
were assigned an information security role as a “collateral duty,” indicated they did not have
adequate experience and training to perform their information security role. Further, the EPA
does not provide consistent information security basic training for executive-level personnel who
are new to their security role, such as SIOs. Such executives need to have a sound understanding
of the FISMA requirements, supporting NIST controls, and corresponding EPA information



14-P-0142                                                                                         5
security policies and procedures, as well as a basic understanding of information security risks
and risk management, so they are prepared to make decisions impacting the EPA’s information
security posture.

The issues we identified during this review are consistent with issues identified during a
Government Accountability Office (GAO) report issued in July 2012.2 In this report, GAO
recommended that the EPA develop and finalize a role-based security training program tailored
to the specific training requirements of EPA users’ role/position descriptions and to the actions
ISOs must take when users do not complete the training. The EPA agreed with the GAO
recommendation and responded that it would continue analyzing information security roles and
responsibilities for personnel with significant security responsibilities and develop and
implement a tailored role-based training program. However, at the time of our review we did not
see evidence that the EPA has implemented this tailored role-based training program.
We found that these issues exist because the EPA has not completed efforts to clearly align
relevant information security training to the specific security-related roles supporting operations
within the EPA.

In addition to the E-Government Act, the EPA also needs to comply with the following
information security guidelines and requirements:

	 EPA CIO Policy 2150.3, EPA Information Security Policy, August 6, 2012, specifically EPA
    Information Procedures CIO 2150.3-P-02.1, Information Security - Interim Awareness and
    Training Procedures v3.1, July 18, 2012:

       EPA shall determine the appropriate content of the security training based on assigned roles and
       responsibilities and the specific requirements of the information systems to which personnel have
       authorized access.

       EPA shall provide adequate security-related technical training to the following individuals in order for
       them to perform their assigned duties:
           i.   Information system managers.
          ii.   System and network administrators.
         iii.   Personnel performing independent verification and validation activities.
         iv.    Security control assessors.
          v.    Other personnel having access to system-level software.

       EPA shall provide the training necessary for these individuals to carry out their responsibilities related to
       operations security within the context of the organization’s information security program.

	 NIST Special Publication (SP) 800-53 Revision 3 Recommended Security Controls for
    Federal Information Systems and Organizations,” August 2009:

       AT-1, Security Awareness and Training Policy and Procedures: The organization develops, documents,
       and disseminates to [Assignment: organization-defined personnel or roles]:
           1.	 A security awareness and training policy that addresses purpose, scope, roles, responsibilities,
                management commitment, coordination among organizational entities, and compliance; and



2
  GAO-12-696 INFORMATION SECURITY- Environmental Protection Agency Needs to Resolve Weaknesses, July
2012


14-P-0142                                                                                                              6
            2.	 Procedures to facilitate the implementation of the security awareness and training policy and
                associated security awareness and training controls.

       AT-3, Role-Based Security Training: The organization provides role-based security training to personnel
       with assigned security roles and responsibilities:
           1.	 Before authorizing access to the information system or performing assigned duties;
           2.	 When required by information system changes; and
           3.	 [Assignment: organization-defined frequency] thereafter.

	 OPM Title 5, Code of Federal Regulations Part 930.301, Information Systems Security
   Awareness Training Program:

       Executives must receive training in information security basics and policy level training in security
       planning and management.

       Program and functional managers must receive training in information security basics; management and
       implementation level training in security planning and system/application security management; and
       management and implementation level training in system/application life cycle management, risk
       management, and contingency planning.

       CIOs, IT security program managers, auditors, and other security-oriented personnel (e.g., system and
       network administrators, and system/application security officers) must receive training in information
       security basics and broad training in security planning, system and application security management,
       system/application life cycle management, risk management, and contingency planning.

       IT function management and operations personnel must receive training in information security basics;
       management and implementation level training in security planning and system/application security
       management; and management and implementation level training in system/application life cycle
       management, risk management, and contingency planning.

In addition to complying with government guidelines and requirements, the EPA needs to
improve in these areas to help ensure that agency personnel have adequate experience and
training to perform their assigned information security roles.

Recommendations
KPMG recommends that the Assistant Administrator for Environmental Information:

   1.	 Define key information security aspects and duties for each security role. This includes
       identifying, where appropriate, broadly similar characteristics within each role to allow
       for more precise alignment of roles to applicable training requirements. This also
       includes ensuring that existing EPA policies, procedures, and guidance fully and
       consistently define all information security roles and responsibilities currently
       implemented across the organization.

   2.	 Provide additional training options specific to the federal information security
       environment and EPA information security roles, such as the processes and controls
       outlined in NIST SP 800-53. Training should be specific to supporting EPA professionals
       in executing and performing assigned information security roles and responsibilities in
       accordance with EPA policies and procedures. For example, vendor training may be



14-P-0142                                                                                                        7
       warranted for hands-on information security roles, but general orientation training may be
       suitable for executives.

Agency Comments and KPMG Evaluation
The agency agreed with these recommendations and provided a response to the draft report which
included corrective actions and milestone dates. We found the response to be acceptable.
Subsequent to issuing the draft report, KPMG and the OIG met with the agency to discuss the
report’s findings and recommendations. As a result of those discussions and the agency’s response
to the draft, we updated the report as appropriate.

The agency initially did not agree with draft report recommendation 3. The agency stated further
clarification was requested for this recommendation. We subsequently met with agency
representatives to discuss the recommendation and updated recommendation 1 to include elements
of recommendation 3 relative to the alignment of roles to information security training
requirements. The agency concurred with the updated recommendation and provided a high-level
corrective action plan with completion dates.




14-P-0142                                                                                      8
                                      Chapter 3

        Information Security Governance Supporting 

              Training Efforts Can Be Improved 

Implementation of the EPA’s information security training program is hampered by inconsistent
assignment of information security roles across the various regional and program offices. These
offices’ organizational structures vary widely, resulting in differing governance models and,
consequently, differing levels of implementation and oversight of training requirements for the
EPA personnel performing technical and managerial functions related to information security.
These inconsistencies result in inadequate implementation of the EPA, NIST, and OPM
requirements related to the provisioning of focused, role-based training for individuals at all
levels throughout the EPA’s hierarchy. This organizational structure can further expose the
organization and its systems and underlying sensitive data to the risk of unauthorized access,
misuse or disclosure.

Assignment of Information Security Roles Is Inconsistent
The process for assigning information security roles varies across the EPA offices. For instance,
some information security duties are formally defined within position descriptions, while others
have information security responsibilities as a collateral duty. Assignment of information
security roles to individuals does not necessarily consider whether the individual has sufficient
previous relevant experience to ensure the adequacy of security controls for the information
system(s) for which they are responsible. We learned that the EPA assigns information security
roles to individuals in an informal manner and does not link the roles to established position
descriptions or to the agency’s Performance Appraisal and Recognition System. Specifically,
position descriptions and corresponding Performance Appraisal and Recognition System
elements are typically limited to baseline descriptions defined by OPM and are not further
tailored to reflect additional “collateral” responsibilities, nor are revised as responsibilities are
assigned subsequent to the individual being placed in the position initially. Further, the EPA does
not consistently define the various agency information security roles. For instance, it is unclear
whether individuals are required to have certain credentials (e.g., professional certifications,
in-house training) or experience with specific technologies, platforms, or utilities necessary to
implement or monitor technical controls on the EPA’s networks and systems.

Organization Structure for Information Security Roles Is Inconsistent
There are different information security governance and organizational models across the EPA.
For instance, in some regional and program offices, the SIO has direct oversight of IT operations
within the organization, while in others a separate Program Manager is designated with this
oversight of IT operations. In some cases an Information Management Officer (IMO) has just an
oversight role, while in others the IMO is also the Branch Chief and supervisor for operations
personnel. Additionally, a Primary ISO for an office or region may receive guidance from the
Senior Agency ISO, SIO and possibly the IMO. In turn, the Primary ISO may give guidance to
System Owners, ISSOs, local ISOs and alternates. A System Owner may have to respond to the


14-P-0142                                                                                          9
Primary ISO, Program Manager, ISO and IMO. Consequently, the EPA has not consistently
established lines of authority and the expected interaction between various information security
roles. This inconsistency greatly complicates the tasks of defining necessary skills and
identifying which organizational level should have the responsibility for providing the
appropriate type of role-based training.

We found that these issues exist because the EPA has a decentralized information security
management structure, with responsibilities shared among many organizational components,
including headquarters, regional offices, and the National Computer Center in Research Triangle
Park. Although there is one SAISO with EPA-wide responsibilities, including coordination with
the Office of Environmental Information’s (OEI’s) Mission Investment Solutions Division for
the development and implementation of EPA’s agencywide information security training
program, there are also 23 Primary ISOs with similar roles in each office and region. Further, the
EPA has not made readily apparent the extent of responsibility and cooperation needed among
these organizations for ensuring that information security personnel in all roles have the
necessary skills and training. Finally, some information security roles are collateral duties held
by personnel whose position and primary work responsibilities may entail unrelated functions.
Consequently, the individual assigned these types of collateral information security roles may
have little or no experience. Such roles include SIO, IMO, Program Manager, System Owner,
and Contracting Officer Representative. OEI security management should take on a more
prominent role in ensuring that EPA information security personnel complete necessary training,
as in some cases the ISOs do not have the authority to ensure personnel comply with the training
requirements.

In addition to the E-Government Act, the EPA also needs to comply with the following
information security guidelines and requirements:

   EPA CIO Policy 2150.3, EPA Information Security Policy, August 6, 2012, specifically
    P-02.,1 Information Security – Interim Awareness and Training Procedures, v3.1, July 18,
    2012:

       EPA shall determine the appropriate content of the security training based on assigned roles and
       responsibilities and the specific requirements of the information systems to which personnel have
       authorized access.

       EPA shall provide adequate security-related technical training to the following individuals in order for
       them to perform their assigned duties:
           i.   Information system managers.
          ii.   System and network administrators.
         iii.   Personnel performing independent verification and validation activities.
         iv.    Security control assessors.
          v.    Other personnel having access to system-level software.

       EPA shall provide the training necessary for these individuals to carry out their responsibilities related to
       operations security within the context of the organization’s information security program.




14-P-0142                                                                                                          10
	 EPA CIO Policy 05-001, Senior Information Officials, July 7, 2005:

       Due to increasing legal requirements and good management practices, information and information
       technology management responsibilities and functions are becoming more important for accomplishing the
       Agency’s mission, and the scope and complexity of those responsibilities and functions continue to expand.
       To ensure these increasingly more important responsibilities and functions are performed effectively
       throughout EPA, the Agency’s organizations must have appropriate accountability for this critical area.
       A designated Senior Information Official in each Program and Regional Office will ensure EPA’s
       information and information technology are effectively managed both corporately across the Agency and
       within each organization to achieve EPA’s business needs, mission, and strategic goals, and will help the
       Agency achieve a cohesive, comprehensive approach to its information and information technology
       infrastructure, architecture, security, web policies, and public access.

	 NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
   Systems and Organizations, August 2009:
       AT-1, Security Awareness and Training Policy and Procedures: The organization develops, documents,
       and disseminates to [Assignment: organization-defined personnel or roles]:
           3.	 A security awareness and training policy that addresses purpose, scope, roles, responsibilities,
                management commitment, coordination among organizational entities, and compliance; and
           4.	 Procedures to facilitate the implementation of the security awareness and training policy and
                associated security awareness and training controls.

       AT-3, Role-Based Security Training: The organization provides role-based security training to personnel
       with assigned security roles and responsibilities:
           4.	 Before authorizing access to the information system or performing assigned duties;
           5.	 When required by information system changes; and
           6.	 [Assignment: organization-defined frequency] thereafter.

	 OPM 5 CFR Part 930.301, Information Systems Security Awareness Training Program:

       Executives must receive training in information security basics and policy level training in security
       planning and management.

       Program and functional managers must receive training in information security basics; management and
       implementation level training in security planning and system/application security management; and
       management and implementation level training in system/application life cycle management, risk
       management, and contingency planning.

       CIOs, IT security program managers, auditors, and other security-oriented personnel (e.g., system and
       network administrators, and system/application security officers) must receive training in information
       security basics and broad training in security planning, system and application security management,
       system/application life cycle management, risk management, and contingency planning.

       IT function management and operations personnel must receive training in information security basics;
       management and implementation level training in security planning and system/application security
       management; and management and implementation level training in system/application life cycle
       management, risk management, and contingency planning.

In addition to complying with government guidelines and requirements, the EPA needs to
improve these areas because the lack of a centralized governance structure leads to
inconsistencies in the operation of the information security training program.



14-P-0142                                                                                                         11
Recommendations
KPMG recommends that the Assistant Administrator for Environmental Information:

   3.	 Standardize the terminology and definition of responsibilities for key IT security 

       management and oversight roles across all EPA organizations and within the EPA 

       information security policy. 


   4.	 Provide a more clear delineation of which EPA organizations should be responsible for
       delivering specific elements of information security role training, and how collectively and
       cooperatively the training needs of each significant role (including technical and executive-
       level roles) are to be met.

Agency Comments and KPMG Evaluation

The agency agreed with these recommendations and provided us with a response to the draft
report which included corrective actions with milestone dates. We found the response to be
acceptable and updated the report as appropriate.




14-P-0142                                                                                       12
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1        Action Official             Date      Amount      Amount

     1        7     Define key information security aspects and duties       O       Assistant Administrator for   12/31/2016
                    for each security role. This includes identifying,               Environmental Information
                    where appropriate, broadly similar characteristics
                    within each role to allow for more precise alignment
                    of roles to applicable training requirements. This
                    also includes ensuring that existing EPA policies,
                    procedures, and guidance fully and consistently
                    define all information security roles and
                    responsibilities currently implemented across the
                    organization.

     2        7     Provide additional training options specific to the      O       Assistant Administrator for   12/31/2016
                    federal information security environment and EPA                 Environmental Information
                    information security roles, such as the processes
                    and controls outlined in NIST SP 800-53. Training
                    should be specific to supporting EPA professionals
                    in executing and performing assigned information
                    security roles and responsibilities in accordance
                    with EPA policies and procedures. For example,
                    vendor training may be warranted for hands-on
                    information security roles, but general orientation
                    training may be suitable for executives.

     3       12     Standardize the terminology and definition of            O       Assistant Administrator for   09/30/2015
                    responsibilities for key IT security management and              Environmental Information
                    oversight roles across all EPA organizations and
                    within the EPA information security policy.

     4       12     Provide a more clear delineation of which EPA            O       Assistant Administrator for   12/31/2015
                    organizations should be responsible for delivering               Environmental Information
                    specific elements of information security role
                    training, and how collectively and cooperatively the
                    training needs of each significant role (including
                    technical and executive-level roles) are to be met.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




14-P-0142                                                                                                                                         13
                                                                                     Appendix A

                                  Survey Questions
Note that the survey was Web based and each question had multiple responses available for the
respondent to select. At the end of the survey, we also included several optional questions for the
respondent to consider.

1. In which EPA office are you currently performing IT security duties?

2. Select one or more of the following roles that most closely describe your IT security-related
function(s) within the Agency.

3. For each of the roles you selected in the previous question, please specify the approximate
percentage of time you spend performing functions associated with that role. To account for any
non-IT security-related roles that you may hold additionally, ensure that the total, including
percentage of time spent on “non-IT security related roles” equals 100.

4. Were you required to participate in specialized training prior to assuming your EPA IT
security responsibilities?

5. How frequently do you attend or participate in specialized training (including "refresher"
training) associated with one or more IT security functions for which you have management or
operational responsibility over?

6. Is your participation in specialized training mandated by your supervisor or other EPA
management?

7. How many years of IT security-related experience did you possess prior to assuming
responsibility for that function at EPA?

8. Which of the following IT security functional areas do you have management or operational
responsibility over (check as many as apply) (example responses included Data Security, Digital
Forensics, IT Security Training, etc.).

9. For each of the functional areas you selected in the previous question, please specify the
approximate percentage of time you spend performing that function as a component of your
overall IT security responsibilities at EPA. The total of all values should equal 100 percent of
time spent on IT security responsibilities. Please enter whole numbers, no percentage signs.

10. Rate your level of experience and knowledge in your role that is associated with each of the
following functional areas of IT security using a scale of 1 to 5 as defined below.

11. What IT security-related certifications do you hold?

12. Please select all levels of post-high school education attained.


14-P-0142                                                                                          14
13. Please select the degree(s) program, major, or area of study completed. You may select more

than 1 degree if applicable. 


14. Within the last three years, for which of the following IT security functional areas have you 

received specialized or targeted job related training? Place your cursor over the answer choices 

to see a short description. Example responses include Data Security, Telecommunications 

Security, Personnel Security, etc. 


15. For Data Security, please select the terms and concepts associated with specialized or 

targeted job related training that you have received within the past three years. Example 

responses include Access Controls, Antivirus Software, Authentication, etc.


16. Do you believe you have the training and prior experience needed to effectively and 

efficiently perform your assigned IT security related responsibilities?


17. For which specific areas or functions do you feel additional training and/or experience would 

better enable you to effectively and efficiently perform your assigned IT security related 

responsibilities?


18. How familiar are you with federal and/or EPA policies or requirements pertaining to 

specialized training for IT security roles and responsibilities?


19. What factors (if any) hinder you in performing your IT security duties (e.g., undue influence 

from your supervisor or senior personnel, lack of authority to provide direction, lack of training, 

etc.)? 


20. In your opinion, how can EPA strengthen its IT security program?


21. Would you like someone from KPMG to contact you to confidentially discuss your survey 

responses in greater detail? 


22. Optional Question -Answer this question at your discretion. 

Within the last three years, have you attended any specialized or targeted job related training 

courses that were particularly or significantly beneficial in improving your capabilities to support 

EPA's IT security program?


23. Optional Question -Answer this question at your discretion. 

Please be as specific as possible in identifying the course title, source, subject matter and 

corresponding capabilities improved by your attendance. 


24. Optional Question -Answer this question at your discretion. 

Within the last three years, were there any job related training courses that did NOT improve 

your capabilities?





14-P-0142                                                                                         15
25. Optional Question -Answer this question at your discretion. 

Please be as specific as possible in identifying the course title, subject matter and intended 

capabilities that were not addressed by the course. 


26. Optional Question -Answer this question at your discretion. 

Please provide any additional general comments or feedback concerning EPA's IT security

program, training and development requirements and resources, or other relevant topic areas. 





14-P-0142                                                                                     16
                                                                                   Appendix B

                  Agency Response to Draft Report
MEMORANDUM

SUBJECT: 	 Response to Office of Inspector General Draft Report No. OMS-FY12-0006 “EPA
           Should Enhance Existing Training Program for Personnel with Significant
           Information Security Responsibilities,” dated January 16, 2014

FROM: 	       Reneé P. Wynn /s/
              Acting Assistant Administrator and Acting Chief Information Officer

TO:	          Arthur A. Elkins, Jr.
              Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the agency’s overall position, along with its position on each
of the report recommendations. For those report recommendations with which the agency agrees,
we have provided high-level intended corrective actions and estimated completion dates. For the
recommendation with which the OEI does not agree, we have explained our position, and
proposed alternatives to recommendations.

AGENCY’S OVERALL POSITION
Of the five recommendations in the draft audit report, OEI agrees with 1, 2, 4 and 5 and
describes high-level intended corrective actions in the attached table.

SUMMARY OF DISAGREEMENTS
With respect to recommendation 3, OEI disagrees because further clarification is requested for
this recommendation.

If you have any questions regarding this response, please contact Robert McKinney, subject
audit primary contact, Senior Agency Information Security Officer (SAISO), at (202) 564-0921,
mckinney.robert@epa.gov or Scott Dockum, OEI Audit Follow-Up Manager, Office of Program
Management, Policy, Outreach and Communications Staff at (202) 566-1914,
dockum.scott@epa.gov.

Attachment




14-P-0142                                                                                        17
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
    No.               Recommendation                       High-Level Intended    Estimated Completion
                                                           Corrective Action(s)    by Quarter and FY

1           Define key information security            OEI will continue to       Quarter 4, FY15
            aspects and duties for each security       refine identified roles
            role to allow for more defined training    and their respective
            and ensure that existing EPA policies,     responsibilities in the
            procedures, and guidance fully and         agency Roles and
            consistently define all information        Responsibilities
            security roles and responsibilities        procedure (CIO-215-.3­
            currently implemented across the           P-19.1), the reference
            organization.                              document for
                                                       information security
                                                       roles and
                                                       responsibilities.
                                                        
                                                       OEI will ensure role
                                                       names are consistently
                                                       used throughout OEI
                                                       developed policies,
                                                       procedures and
                                                       guidelines.
2           Provide additional training options        OEI will review training   Quarter 1, FY16
            specific to the federal information        options and inform
            security environment and EPA               agency personnel of
            information security roles, such as the    appropriate training
            processes and controls outlined in         options for each
            NIST SP 800-53. Training should be         identified role(s).
            specific to supporting EPA
            professionals in executing and
            performing assigned information
            security roles and responsibilities in
            accordance with EPA policies, and
            procedures. For example, vendor
            training may be warranted for hands on
            information security roles, but general
            orientation training may be suitable for
            executives.




14-P-0142                                                                                            18
    No.               Recommendation                     High-Level Intended        Estimated Completion
                                                         Corrective Action(s)        by Quarter and FY

4           Standardize the terminology and             OEI will continue to        Quarter 4, FY15
            definition of responsibilities for key IT   support the consistent
            security management and oversight           use of terminology and
            roles across all EPA organizations and      definitions for key IT
            within the EPA information security         security roles. OEI will
            policy.                                     continue to refine and
                                                        update the roles and
                                                        responsibilities
                                                        procedure, CIO-215-.3­
                                                        P-19.1, as necessary.
5           Provide a more clear delineation of         OEI is developing a role    Quarter 1, FY15
            which EPA organizations should be           based training program
            responsible for delivering specific         that addresses training
            elements of information security role       requirements for both
            training, and how collectively and          technical and non­
            cooperatively the training needs of         technical roles that have
            each significant role (including            significant information
            technical and executive level roles) are    security
            to be met.                                  responsibilities.
 
Disagreements
    No.               Recommendation                             Agency              Proposed Alternative
                                                         Explanation/Response
3           Complement the Skillport training           Further clarification is    N/A
            process by establishing an appropriate      requested for this
            number of information security roles        recommendation.
            that identify broadly similar
            characteristics and inherently
            governmental roles, and link these
            roles to applicable training
            requirements.




14-P-0142                                                                                               19
                                                                                             Appendix C


                Revised Agency Corrective Action Plan
                     to Report Recommendations
     No.              Recommendation                     High-Level Intended              Estimated
                                                         Corrective Action(s)          Completion by
                                                                                       Quarter and FY
1           Define key information security             In developing a role based   Quarter 1, FY16
            aspects and duties for each security       training program, OEI will
            role. This includes identifying, where     define
            appropriate, broadly similar               the responsibilities for
            characteristics within each role to        each role and closely align
            allow for more precise alignment of        them to appropriate
            roles to applicable training               training. OEI will
            requirements. This also includes           continue to develop new
            ensuring that existing EPA policies,       and update existing
            procedures, and guidance fully and         policies, procedures, and
            consistently define all information        guidance under OEI's
            security roles and responsibilities        purview so that
            currently implemented across the           information security roles
            organization                               and responsibilities are
                                                       defined consistently.
2           Provide additional training options        OEI will review training      Quarter 1, FY16
            specific to the federal information        options and inform agency
            security environment and EPA               personnel of appropriate
            information security roles, such as the    training options for each
            processes and controls outlined in         identified role(s). 
            NIST SP 800-53. Training should be
            specific to supporting EPA
            professionals in executing and
            performing assigned information
            security roles and responsibilities in
            accordance with EPA policies, and
            procedures. For example, vendor
            training may be warranted for hands on
            information security roles, but general
            orientation training may be suitable for
            executives. 




14-P-0142                                                                                               20
    No.               Recommendation                      High-Level Intended               Estimated
                                                          Corrective Action(s)           Completion by
                                                                                         Quarter and FY
3           Standardize the terminology and             OEI will continue to           Quarter 4, FY15
            definition of responsibilities for key IT   support the consistent use
            security management and oversight           of terminology and
            roles across all EPA organizations and      definitions for key IT
            within the EPA information security         security roles. OEI will
            policy.                                     continue to refine and
                                                        update the roles and
                                                        responsibilities procedure,
                                                        CIO-215-.3-P-19.1, as
                                                        necessary.
4           Provide a more clear delineation of         OEI is developing a role       Quarter 1, FY15
            which EPA organizations should be           based training program
            responsible for delivering specific         that addresses training
            elements of information security role       requirements for both
            training, and how collectively and          technical and non­
            cooperatively the training needs of         technical roles that have
            each significant role (including            significant information
            technical and executive level roles) are    security responsibilities.  
            to be met. 




14-P-0142                                                                                                 21
                                                                                Appendix D


                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Senior Agency Information Security Officer
Audit Follow-Up Coordinator, Office of Environmental Information




14-P-0142                                                                               22
